NO. _________

IN THE SUPREME COURT OF THE UNITED STATES
PATRICK RONALD SILVA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
________________________________________
PETITION FOR A WRIT OF CERTIORARI
_______________________________________

Randolph M. Lee
Counsel of Record for Petitioner
P. O. Box 654
Monroe, NC 28111
704.841.2222
Randolph@RandolphMarshallLee.com

QUESTION PRESENTED FOR REVIEW
I.

Whether the Fourth Circuit’s denial of Petitioner’s request for a certificate of
appealability pursuant to 28 U.S.C. § 2255 was unreasonable and conflicts with
the standards for a certificate of appealability to issue as set forth in Miller-El v.
Cockrell, 537 U.S. 322 (2003), thus depriving Mr. Silva of his right to obtain
Habeas Corpus review?

ii

LIST OF PARTIES
The only parties to the proceeding are those appearing in the caption to this
petition.

iii

TABLE OF CONTENTS
Page

QUESTION PRESENTED FOR REVIEW

ii

LIST OF PARTIES

iii

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES

v

OPINION BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

6

CONCLUSION

8

CERTIFICATE OF COMPLIANCE

9

CERTIFICATE OF SERVICE
INDEX TO APPENDICES
APPENDIX A

United States v. Silva, No. 19-7470,
(4th Cir. March 16, 2020)

APPENDIX B

District Court Order Denying Motion to Vacate

APPENDIX C

Informal Brief of Mr. Silva to Fourth Circuit Court
of Appeals seeking issuance of a Certificate of
Appealability

iv

TABLE OF AUTHORITIES
Page(s)

Amendments to the United States Constitution
Amend. VI

2

Cases
Ayestas v. Davis, 138 S.Ct. 1080 (2018)

8

Miller-El v. Cockrell, 537 U.S. 322 (2003)

ii, 6

Welch v. United States, 136 S.Ct. 1257 (2016)

6

St. Hubert v. United States, No. 19-5267 (U.S. June 8, 2020)

7

Statutes
28 U.S.C. § 1254

1

28 U.S.C. § 2253

2

28 U.S.C. § 2255

ii, 1, 2

v

PETITION FOR A WRIT OF CERTIORARI
_____________________________________________________
OPINION BELOW
The District Court denied Patrick Ronald Silva’s habeas petition under 28 U.S.C. §
2255 and further denied him a certificate of appealability (“COA”), finding that Mr. Silva
failed to demonstrate that the dispositive procedural rulings were debatable, and that
the motion to vacate stated a debatable claim of the denial of a constitutional right. On
March 16, 2020, the Fourth Circuit Court of Appeals issued its judgment denying Mr.
Silva’s application for a COA. See United States v. Silva, No. 19-7470 (4th Cir. March
16, 2020), Appendix (“App.”) A. Therefore, it affirmed the District Court’s Order denying
Mr. Silva’s motion to vacate. A copy of the district court’s order is attached at App. B.

JURISDICTION
The Fourth Circuit Court of Appeals’ denial of Mr. Silva’s application for a
COA was entered March 16, 2020. By Order of March 19, 2020 the Supreme Court of the
United States provided that petitions for writs of certiorari are timely if filed within 150
days from the date of the lower court judgment. The petition is timely submitted.
Jurisdiction to review the judgment of the court of appeals is conferred upon this Court
by 28 U.S.C. § 1254(1).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Petitioner refers this Honorable Court to the following constitutional and
statutory provisions:
U.S. CONST. Amend. VI:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defence.
Section 2253( c) of the United States Code, Title 28, provides in relevant part:
(1) Unless a circuit justice or judge issues a certificate of appealability, an appeal
may not be taken to the court of appeals from—
(A) the final order in a habeas corpus proceeding in which the detention
complained of arises out of process issued by a State court; or
(B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph (1) only if the
applicant has made a substantial showing of the denial of a constitutional right.

Section 2255 (a)) of the United States Code, Title 28, provides in relevant part:
A prisoner in custody under sentence of a court established by Act of Congress
claiming the right to be released upon the ground that the sentence was imposed
in violation of the Constitution or laws of the United States, or that the court was
without jurisdiction to impose such sentence, or that the sentence was in excess
of the maximum authorized by law, or is otherwise subject to collateral attack,
may move the court which imposed the sentence to vacate, set aside or correct
the sentence.
Section 2255 (d) of the United States Code, Title 28, provides in relevant part:
An appeal may be taken to the court of appeals from the order entered on the
motion as from the final judgment on application for a writ of habeas corpus.

2

STATEMENT OF THE CASE
1. Patrick Ronald Silva and Tabatha Black were named in a multi-count
indictment filed April 1, 2014 in the Western District of North Carolina alleging multiple
child pornography offenses. App. B. On June 6, 2014 Mr. Silva pleaded guilty to Count
One of the Indictment. The plea of guilty was pursuant to a plea agreement.
2. The district court conducted a factual basis and sentencing hearing. At the
hearing, after determining that Mr. Silva’s guilty plea was knowing and voluntary, and
after ascertaining the applicable guideline range, the district court imposed a sentence
of 262 months. Mr. Silva appealed to the Fourth Circuit Court of Appeals which, on April
6, 2016 affirmed his conviction and sentence. App. B.
3. On April 3, 2017 Mr. Silva filed a motion under 28 U.S.C. § 2255 to vacate his
conviction and sentence. See App. B. Among the claims presented by Mr. Silva was a
claim (Claim 4) that trial counsel had been ineffective by resisting Mr. Silva’s desire to
move to withdraw his guilty plea. App. B. Subsequent to the filing of that motion, and
after the Government’s response had been made to the Section 2255 motion, Mr. Silva
filed requests for discovery. See App. B.
4. On August 12, 2019, the district court issued its Memorandum of Decision and
Order addressing the contentions presented by Mr. Silva in his Section 2255 motion. The
district court recognized the claim (Claim 4) that trial counsel had been ineffective in
advising and representing Mr. Silva on his desire to move to withdraw his guilty plea. It
understood that Mr. Silva argued that his co-defendant’s statement was the only
evidence supporting his guilty plea, and that even the Government had doubts as to the
3

information co-defendant Black provided. App. B. The district court also recognized
that the substantial assistance departure motion for Black’s sentence was minimal
because the Government’s doubt about Black’s credibility was present.
5. In addressing this ground for his desire to move to withdraw his guilty plea, the
district court found that trial counsel’s performance was not deficient; it held that the
questionability of Black’s credibility would not have established a fair and just reason
for withdrawing his plea. App. B. In consideration of these matters, the district court
concluded that Mr. Silva could not show prejudice to any ineffective performance of
counsel on the plea withdrawal claim because Mr. Silva would not have prevailed on a
motion to withdraw his guilty plea. App. B.
6. After determining that Mr. Silva’s claim that his plea withdrawal issue was
prejudiced by trial counsel’s performance, the district court used that determination to
justify its decision not to allow Mr. Silva discovery as to why his co-defendant’s
credibility was disfavored by the Government:
“The Petitioner moved the Court for discovery in this § 2255 proceeding. To obtain
leave to serve discovery requests, the Petitioner has the burden to show “good
cause” under Rule 6(a) of the Rules Governing Section 2255 Proceedings. See
Bracy v. Gramley, 520 U.S. 899, 908 (1997). “Good cause” does not exist where a
petitioner requests discovery on a claim that fails as a matter of law. See Thomas
v. Taylor, 170 F.3d 466, 474 (4th Cir. 1999). Because the Court has concluded that
the Petitioner’s claims all fail as a matter of law, his request for discovery must be
denied.” App. B at pg 26.
7. Mr. Silva’s application for a COA to the Fourth Circuit Court of Appeals argued
that the Sixth Amendment claim he made about trial counsel prejudicing his plea
withdrawal issue was not fully and fairly considered by the district court because it was

4

decided without the benefit of discovery of the very information he needed to prove his
claim. Mr. Silva’s request for discovery had been summarily denied by the district court
on the notion that any motion to withdraw his guilty plea would have been denied on the
merits. The appellate application for a COA argued why discovery denied deprived Mr.
Silva of his right to make out his Sixth Amendment claim on the merits.
8. The Fourth Circuit’s decision not to issue a COA was done without the benefit
of briefings on the merits. The Fourth Circuit did not offer any reasoning or analysis for
its decision.

5

REASONS FOR GRANTING THE PETITION
The Fourth Circuit’s denial of Mr. Silva’s request for a certificate of appealability
(“COA”) was unreasonable and conflicts with this Court’s reasoning in Miller-El v.
Cockrell, 537 U.S. 322 (2003). In Miller-El, this Court addressed what it means to
present a substantial showing of a constitutional right: “[u]nder the controlling
standard, a petitioner must ‘show that reasonable jurists could debate whether (or, for
that matter, agree that) the petition should have been resolved in a different manner or
that the issues presented were adequate to deserve encouragement to proceed
further.'" Miller-El at 336 (internal cites omitted)(emphasis added). The Court made it
clear that a petitioner was not required to show that he would have success on the
merits: “It is consistent with § 2253 that a COA will issue in some instances where there
is no certainty of ultimate relief. After all, when a COA is sought, the whole premise is
that the prisoner 'has already failed in that endeavor.'" Id. 337.
This Honorable Court’s jurisprudence subsequent to Miller-El affirms this notion
that a petitioner seeking a COA need not show a substantial likelihood of success on the
merits. Welch v. United States, 136 S. Ct. 1257, 1263 - 1264 (2016)(a court of appeals
should not decline the application merely because it believes the applicant will not
demonstrate an entitlement to relief).
Because the Fourth Circuit did not offer any reason for its decision, Mr. Silva is
left with the arguments he presented in his informal brief to the Fourth Circuit to
establish why he met the requirements for the issuance to him of a COA. Stated here in
summary fashion, Mr. Silva sought a COA because the denial of discovery to him by the
6

district court was necessary for him to make out his claims of ineffective assistance of
counsel. Without access to discovery (particularly as to why it was that his codefendant, Ms. Black, was deemed later by the Government to be incredulous — and,
this after Mr. Silva pleaded guilty but before he was sentenced), the district court
determined Mr. Silva’s guilty plea was not obtained by Sixth Amendment infirmities.
The analysis by the district court in determining Mr. Silva’s habeas corpus
petition under 28 U.S.C. 2255 minimized the evidentiary showing a post-conviction
petitioner must make where he sought to challenge the integrity of his guilty plea and
conviction.
As suggested by Justice Sotomayor in St. Hubert v. United States, No. 19-5267 at
6 (U.S. June 8, 2020) in concurring with the denial of a petition for a writ of certiorari
arising from the denial of a COA on a second or successive habeas motion, a common
practice of appeals courts is to make a decision on the merits (but without the benefit of
adversarial briefings on the merits) rather than to determine whether the applicant
presented a prima facie showing that the application meets the statutory requirements
authorizing the issuance of the COA.

Justice Sotomayor’s concurring opinion tacitly

recognized the ills that may come when weighty questions are decided without the
benefit of full briefing by both sides.
The constitutional right that Mr. Silva sought to vindicate at the Fourth Circuit, by
obtaining a COA, was his right to meaningful Habeas Corpus. Without the discovery he
sought, Mr. Silva was not in a position to credibly present his underlying claim to his
constitutional right to Sixth Amendment assistance of counsel. Cf. Ayestas v. Davis, 138
7

S. Ct. 1080, 1088, fn 1 (2018)(denial by district court of funding for expert was not only
debatable it was wrong). Mr. Silva’s application to the appeals court for a COA
presented a plea for vindication of his habeas rights. The summary denial, without any
real analysis or discussion, of his application serves as an example of some of the
practices about which Justice Sotomayor wrote. Mr. Silva’s case is an opportunity for
this Honorable Court to address those concerns.
.
CONCLUSION
This Honorable Court should grant this petition for a writ of certiorari, find that
the appeals court erroneously determined that Mr. Silva had not met a substantial
showing of his constitutional right to habeas corpus, and remand to the United States
Court of Appeals for the Fourth Circuit with instructions to grant a certificate of
appealability for full briefings on the merits.
Respectfully submitted, this the 13th day of August, 2020.

/s/_________________________________
Randolph M. Lee
Counsel for Petitioner
P. O. Box 654
Monroe, NC 28111
704.841.2222
Randolph@RandolphMarshallLee.com

8

IN THE SUPREME COURT OF THE UNITED STATES
NO. _________
PATRICK RONALD SILVA,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 1,989 words, excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 13, 2020.

Randolph M. Lee
Counsel of Record for Petitioner
P. O. Box 654
Monroe, NC 28111
704.841.2222
Randolph@RandolphMarshallLee.com

9

APPENDIX A

United States v. Silva, No. 19-7470 (4th Cir. March 16, 2020)
Opinion Denying Certificate of Appealability (“COA”)

USCA4 Appeal: 19-7470

Doc: 12

Filed: 03/16/2020

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7470

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
PATRICK RONALD SILVA,
Defendant - Appellant.

Appeal from the United States District Court for the Western District of North Carolina, at
Asheville. Martin K. Reidinger, District Judge. (1:14-cr-00026-MR-DLH-1; 1:17-cv00096-MR)

Submitted: March 12, 2020

Decided: March 16, 2020

Before KING, KEENAN, and FLOYD, Circuit Judges.

Dismissed by unpublished per curiam opinion.

Randolph Marshall Lee, Charlotte, North Carolina, for Appellant.

Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 19-7470

Doc: 12

Filed: 03/16/2020

Pg: 2 of 2

PER CURIAM:
Patrick Ronald Silva seeks to appeal the district court’s order denying relief on his
28 U.S.C. § 2255 (2018) motion. The order is not appealable unless a circuit justice or
judge issues a certificate of appealability. See 28 U.S.C. § 2253(c)(1)(B) (2018). A
certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2) (2018). When the district court denies relief
on the merits, a prisoner satisfies this standard by demonstrating that reasonable jurists
would find the district court’s assessment of the constitutional claims debatable or wrong.
See Buck v. Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on
procedural grounds, the prisoner must demonstrate both that the dispositive procedural
ruling is debatable and that the motion states a debatable claim of the denial of a
constitutional right. Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v.
McDaniel, 529 U.S. 473, 484 (2000)).
We have independently reviewed the record and conclude that Silva has not made
the requisite showing. Accordingly, we deny a certificate of appealability and dismiss the
appeal. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

APPENDIX B

District Court Order Denying Motion to Vacate,
August 12, 2019

THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF NORTH CAROLINA
ASHEVILLE DIVISION
CIVIL CASE NO. 1:17-cv-00096-MR
[CRIMINAL CASE NO. 1:14-cr-00026-MR-DLH-1]

PATRICK RONALD SILVA,

)
)
Petitioner,
)
)
vs.
)
)
UNITED STATES OF AMERICA,
)
)
Respondent.
)
________________________________ )

MEMORANDUM OF
DECISION AND ORDER

THIS MATTER is before the Court on the Petitioner Patrick Ronald
Silva’s Motion under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence by a Person in Federal Custody [CV Doc. 1]; the Government’s
Motion to Seal [Doc. 5]; and the Petitioner’s Motion for Leave to Propound
Discovery [CV Doc. 9].1 The Petitioner is represented by attorney Randolph
Marshall Lee.

1

Because this Memorandum and Order must reference documents contained on the
docket in both Petitioner’s civil case and his criminal case, the Court will cite to documents
from the Petitioner’s civil case with the prefix “CV.” The Court will cite to documents from
the Petitioner’s criminal case with the prefix “CR.”

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 1 of 27

I.

BACKGROUND
The Petitioner Patrick Ronald Silva was engaged in trading child

pornography on a popular international photo sharing website. [CR Doc. 52:
PSR at ¶¶ 13(1), 14]. Some of the files he traded contained sexually explicit
depictions of minors subjected to sadomasochistic treatment. [Id. at ¶ 18]. At
the same time, the Petitioner was also engaged in an intimate sexual
relationship with his co-defendant Tabatha Black (“Black”), who was married
and had a seven-year-old daughter (“child victim” or “C.V.”). [Id. at ¶ 13(1),
(4)]. During the course of their relationship, the Petitioner asked Black to take
sexually explicit photographs of her daughter and send them to him for his
sexual gratification, and Black complied. [Id. at ¶¶ 13(4), 36]. At the time of
his arrest, the Petitioner had in his possession multiple pornographic images
of C.V., as well as several videos.

[Id. at ¶¶ 37-38].

Additionally, the

investigation revealed that the Petitioner had sent videos and images that
Black took of C.V. to other people. [Id. at ¶ 5(b)(ii), (d)(i)].
On April 1, 2014, the Petitioner and Black were charged in a Bill of
Indictment, with multiple child pornography offenses. [CR Doc. 1: Indictment].
Specifically, the Petitioner and Black were both charged in Count One with
sexual exploitation of a minor, in violation of 18 U.S.C. § 2251(a). [Id.].
Additionally, the Petitioner was charged with sexual exploitation of a minor,
2

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 2 of 27

and aiding and abetting the same, in violation of 18 U.S.C. §§ 2251(a),
2251(e), and 2 (Count Two); transportation of child pornography, and aiding
and abetting the same, in violation of 18 U.S.C. §§ 2252A(a)(1) and 2 (Count
Four); receipt of child pornography, in violation of 18 U.S.C. § 2252A(a)(2)
(Count Five); and possession of child pornography, in violation of 18 U.S.C.
§ 2252A(a)(5)(B) (Count Seven). [Id.].
On June 6, 2014, the Petitioner entered into a Plea Agreement in which
he agreed to plead guilty to Count One as set forth in the Bill of Indictment, in
exchange for which the Government agreed to dismiss Counts Two, Four,
Five, and Seven. [CR Doc. 32: Plea Agreement]. In the Plea Agreement, the
parties made a series of joint recommendations to the Court, including the
following:
a.

That pursuant to U.S.S.G. § 2G2.1(a), [Petitioner’s] base
offense level is 32.

b.

That the offense involved a minor who had not attained the
age of twelve years.

c.

[That] [t]he offense involved distribution.

[Id. at ¶ 7(a)-(c)]. The Petitioner acknowledged in the Plea Agreement that
he understood that the Court would consider the Guidelines as advisory; that
the Court had not yet determined the sentence and that any estimate of the
likely sentence was “a prediction rather than a promise”; that the Court had
3

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 3 of 27

the discretion to impose any sentence up to the statutory maximum; and that
the Court would not be bound by any recommendations or agreements made
by the Government. [Id. at ¶ 6]. The Petitioner further agreed in the Plea
Agreement, “in exchange for the concessions made by the United States,” to
waive his right to appeal his conviction or his sentence, except on the bases
of ineffective assistance of counsel or prosecutorial misconduct. [Id. at ¶ 19].
On June 12, 2014, the Petitioner appeared before the Honorable
Dennis L. Howell, United States Magistrate Judge, for a Rule 11 hearing. The
Petitioner was placed under oath and was asked a series of questions by the
Magistrate Judge, who recorded his responses.

[CR Doc. 34: Rule 11

Inquiry]. During this colloquy, the Petitioner averred that he could hear and
understand the Magistrate Judge’s questions and that his mind was clear.
[Id. at 1-2]. The Magistrate Judge advised the Petitioner of the essential
elements of the offense to which he was pleading guilty, as well as the
minimum and maximum penalties. [Id. at 2-3]. In response to the Magistrate
Judge’s questions, the Petitioner affirmatively stated that he understood that
the Court would not be bound by the Sentencing Guidelines in sentencing
him and could impose a sentence greater or less than the sentence as
provided for by the Guidelines. [Id. at 5]. The Petitioner further stated that
he understood that if the imposed sentence was more severe than expected
4

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 4 of 27

or the Court did not accept the Government’s sentencing recommendation,
he would still be bound by his guilty plea and would have no right to withdraw
his plea. [Id. at 5-6].
The Petitioner further admitted that he was guilty of Count One as set
forth in the Bill of Indictment; that his guilty plea was voluntary; that he
understood and agreed with the terms of the written Plea Agreement; and
that no promises were made to him other than the promises contained in that
written agreement. [Id. at 7-8]. The Petitioner also affirmed that he was
waiving his right to appeal. [Id. at 8]. Based upon the representations and
answers given by the Petitioner, the Magistrate Judge found that his guilty
plea was knowingly and voluntarily made and that the Petitioner understood
the charges, potential penalties, and consequences of that plea. [Id. at 9].
In advance of the Petitioner’s sentencing, the Probation Office prepared
a Presentence Report (“PSR”). [CR Doc. 52: PSR]. The probation officer
recommended a total offense level of 37, based upon a base offense level of
32, along with an increase of four levels due to the fact that the child victim
was under the age of twelve years, U.S.S.G. § 2G2.1(b)(1)(A); an increase of
two levels based on the fact that the offense involved the commission of a
sexual act or sexual contact, U.S.S.G. § 2G2.1(b)(2)(A); an increase of two
additional levels due to the fact that the offense involved distribution, U.S.S.G.
5

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 5 of 27

§ 2G2.1(b)(3); and a three-level reduction for acceptance of responsibility,
U.S.S.G. § 3E1.1(b). [Id. at ¶¶ 47-49, ¶¶ 55-57]. Based on a total offense
level of 37, and a criminal history category of III, the probation officer
recommended an advisory Guidelines range of 262 to 327 months’
imprisonment. [Id. at ¶¶ 57, 68, 99].
The Court held a sentencing hearing on May 28, 2015. The Court first
confirmed that all of the Petitioner’s responses to the Magistrate Judge’s
questions in the prior Rule 11 proceedings were true and correct. [CR Doc.
69: Silva Sent. Tr. at 4]. The Petitioner’s counsel confirmed that he was
satisfied that the Petitioner understood all of the questions that were asked of
him in the Rule 11 proceedings. [Id. at 4-5]. The Petitioner confirmed that he
was pleading guilty because he did in fact commit the crime charged. [Id. at
5]. He further confirmed that he was pleading guilty voluntarily and not as a
result of any threats, force or promises other than those promise set forth in
the Plea Agreement. [Id.].
Noting that the parties had stipulated to various sentencing
recommendations in the Plea Agreement, the Court confirmed that the
Petitioner understood that the Court was “not required to accept those facts
or those factors simply because both sides have agreed” and that if the Court

6

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 6 of 27

“decline[d] to accept any of those facts or factors in [its] sentencing decision,
[the Petitioner would] not have the right to withdraw [his] plea.” [Id. at 5-6].
The Petitioner then stipulated that there was a factual basis to support
his guilty plea and that the Court could accept the facts as set forth in the final
PSR as establishing such factual basis.

[Id. at 6-7].

Based upon the

representations made to the Court and the answers given by the Petitioner,
the Court accepted the Petitioner’s guilty plea. [Id. at 7].
During the sentencing hearing, the Petitioner’s counsel noted the
findings in the PSR that the Petitioner himself was the victim of sexual abuse
at a very early age, that the abuse had occurred for a seven- to eight-year
period, and that the Petitioner had never been treated or evaluated for such
abuse. [Id. at 9]. Counsel also argued that this case was “strikingly similar”
to another exploitation case that had recently been before the Court, wherein
a mother was accused of sending pornographic images of her own child to
the mother’s co-defendant with whom the mother was having an affair.
Counsel argued that the mother in that case “was viewed to be far more
culpable in her conduct than that of the male she was having an extramarital
relationship with,” and thus the mother received a much harsher sentence
than the sentence received by her male co-defendant. [Id. at 11]. In contrast
to that case, counsel argued that in prosecuting the Petitioner and Black, the
7

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 7 of 27

Government had chosen to show favor to Black, despite the fact that her
conduct was, in counsel’s words, “equally as reprehensible and certainly
more culpable than the actions of [the Petitioner].” [Id. at 14]. Noting that this
Court had sentenced Black to a term of 210 months’ imprisonment just a few
weeks earlier, the Petitioner’s counsel argued that the Court should impose
a sentence that was equal to or less than the sentence imposed upon Black.2
[Id. at 14-16].
The Government argued that the Court should impose a sentence at
the low end of the Guidelines range.

In so arguing, the Government

distinguished the other exploitation case cited by the Petitioner’s counsel,
noting that the other case involved a single occasion of solicitation without
any distribution, whereas the Petitioner made a series of solicitations over a
long period of time and distributed the solicited pornographic images over the
internet. [Id. at 17-21]. The Government noted that the Petitioner’s criminal
history was more extensive than the typical defendant’s in an exploitation
case. [Id. at 21]. The Government further noted that other producers of child

At Black’s sentencing, the Government moved to reduce her sentence by two levels,
based on her substantial assistance. [CR Doc. 78: Black Sent. Tr. at 13]. The Government
did not seek a larger reduction because it believed that Black had not been completely
forthcoming regarding her contact offense with C.V. [Id. at 27-28, 30]. This Court granted
the motion. [Id. at 13]. Black, who had a criminal history category of I, was sentenced to
210 months of imprisonment. [Id. at 12-13, 34].
8
2

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 8 of 27

pornography had been sentenced to between 262 and 480 months’
imprisonment. [Id. at 22-23].
After hearing from both parties as to the appropriate sentence, the
Court imposed a sentence of 262 months’ imprisonment, the low end of the
Guidelines Range. [Id. at 25]. In explaining its reasoning for the sentence
imposed, the Court noted the presence of several aggravating factors,
including the fact that the Petitioner solicited and induced the creation of the
pornographic images and solicited and induced the mother to participate in
the creation of these images and in the actual molestation of her child. The
Court also noted, however, that it was allowing for “some degree of reduction”
in light of the Petitioner’s own history of sexual abuse and the Petitioner’s
cooperation with law enforcement at an early stage of the investigation. [Id.
at 27-28]. The Court entered its Judgment on June 2, 2015. [CR Doc. 59:
Judgment].
The Petitioner filed a timely notice of appeal [CR Doc. 61: Notice of
Appeal], arguing that his trial counsel was ineffective at sentencing in failing
to present certain arguments and in failing to file a motion for a downward
variance or departure. On April 6, 2016, the Fourth Circuit Court of Appeals
dismissed the Petitioner’s appeal, finding that the Petitioner’s claims were not
reviewable on direct appeal. [CR Doc. 73: Fourth Circuit Opinion].
9

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 9 of 27

On April 3, 2017, the Petitioner, through retained counsel, filed the
present motion to vacate pursuant to 28 U.S.C. § 2255. [CV Doc. 1]. In his
motion, the Petitioner asserts the following grounds for relief: (1) that trial
counsel was ineffective in advising him to plead pursuant to the Plea
Agreement (Claim 1); (2) that trial counsel was ineffective in failing to seek
suppression of the Petitioner’s statements to law enforcement (Claim 2); (3)
that trial counsel refused to explore and investigate the Petitioner’s claim that
the child’s underwear found in his residence during the search came from an
adult not connected to this case (Claim 3); (4) that trial counsel was ineffective
in resisting the Petitioner’s desire to move to withdraw his guilty plea (Claim
4); and (5) that trial counsel was ineffective at sentencing by failing to seek
the appointment of a forensic psychologist to address the impact of the
Petitioner’s childhood sexual abuse and in failing to advance arguments
regarding the need to avoid sentencing disparities (Claim 5). [CV Doc. 1]. In
the affidavit supporting his Motion to Vacate, the Petitioner states: “Had I
known [at the time of my plea] what I know now, I would have pled not guilty
and sought a plea to the offense of which I was guilty.” [CV Doc. 1: Silva Aff.
at ¶ 25]. He further asks the Court to “strike [his] guilty plea and plea
agreement” so that he may assert his defenses and “seek a sentence

10

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 10 of 27

appropriate to my criminal history, to my level of guilt and consistent with the
factors in Section 3553(a).” [Id. at ¶ 26].
II.

STANDARD OF REVIEW
Pursuant to Rule 4(b) of the Rules Governing Section 2255

Proceedings, sentencing courts are directed to promptly examine motions to
vacate, along with “any attached exhibits and the record of prior proceedings”
in order to determine whether a petitioner is entitled to any relief. After having
considered the record in this matter, the Court finds that this matter can be
resolved without an evidentiary hearing. See Raines v. United States, 423
F.2d 526, 529 (4th Cir. 1970).
III.

DISCUSSION
A.

Ineffective Assistance of Counsel Claims

In order to challenge a conviction based on the ineffective assistance
of counsel, a petitioner has the burden of establishing that: (1) defense
counsel’s performance was deficient, in that counsel’s “representation fell
below an objective standard of reasonableness” as measured by “prevailing
professional norms,” and (2) the petitioner suffered prejudiced as a result.
Strickland v. Washington, 466 U.S. 668, 688, 694 (1984).
Courts must apply a “highly deferential” standard in reviewing an
attorney’s performance and “must indulge a strong presumption that
11

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 11 of 27

counsel’s conduct falls within the wide range of reasonable professional
assistance.” Id. at 689. In order to establish prejudice, the petitioner must
demonstrate there is “a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.”
Id. at 694. “A reasonable probability is a probability sufficient to undermine
confidence in the outcome.”

Id.

It is not sufficient to show the mere

“‘possibility of prejudice.’” Satcher v. Pruett, 126 F.3d 561, 572 (4th Cir. 1997)
(quoting Murray v. Carrier, 477 U.S. 478, 494 (1986)). In considering the
prejudice prong, a court “can only grant relief under . . . Strickland if the ‘result
of the proceeding was fundamentally unfair or unreliable.’” Sexton v. French,
163 F.3d 874, 882 (4th Cir. 1998) (quoting Lockhart v. Fretwell, 506 U.S. 364,
369 (1993)). If a petitioner fails to conclusively demonstrate prejudice, the
Court need not consider the performance prong. United States v. Terry, 366
F.3d 312, 315 (4th Cir. 2004).
To establish prejudice in the context of a guilty plea, a petitioner must
show that “there is a reasonable probability that, but for counsel's errors, he
would not have pleaded guilty and would have insisted on going to trial.”
United States v. Swaby, 855 F.3d 233, 241 (4th Cir. 2017) (quoting Hill v.
Lockhart, 474 U.S. 52, 59 (1985)). “Courts should not upset a plea solely
because of post hoc assertions from a defendant about how he would have
12

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 12 of 27

pleaded but for his attorney’s deficiencies. Judges should instead look to
contemporaneous evidence to substantiate a defendant's expressed
preferences.” Lee v. United States, 137 S. Ct. 1958, 1967 (2017).
A defendant’s knowing and voluntary waiver of the right to collaterally
attack his conviction and sentence is enforceable. United States v. Lemaster,
403 F.3d 216, 220 (4th Cir. 2005). In evaluating claims made in a motion to
vacate, statements made by a defendant under oath at a plea hearing carry
a “strong presumption of verity” and present a “formidable barrier” to
subsequent collateral attacks. Blackledge v. Allison, 431 U.S. 63, 73-74
(1977); see also Lemaster, 403 F.3d at 221-22 (“Thus, in the absence
extraordinary circumstances, the truth of sworn statements made during a
Rule 11 colloquy is conclusively established, and a district court should,
without holding an evidentiary hearing, dismiss any § 2255 motion that
necessarily relies on allegations that contradict the sworn statements.
Otherwise, a primary virtue of Rule 11 colloquies would be eliminated....”).
1.

Claims 1, 2, and 3

In his first three claims, the Petitioner contends that his counsel
conducted an inadequate investigation prior to the Petitioner pleading guilty;
that counsel was ineffective in recommending that the Petitioner plead guilty

13

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 13 of 27

pursuant to the Plea Agreement; and that counsel provided ineffective
assistance by failing to file a motion to suppress. [CV Doc. 1 at 5-8].
“When a defendant pleads guilty, he waives all nonjurisdictional defects
in the proceedings conducted prior to entry of the plea.” United States v.
Moussaoui, 591 F.3d 263, 279 (4th Cir. 2010). Thus, a knowing and voluntary
guilty plea “forecloses federal collateral review” of prior constitutional
deprivations, including allegations of ineffective assistance of counsel that do
not affect the voluntariness of the plea. See Fields v. Att’y Gen. of Md., 956
F.2d 1290, 1294-96 (4th Cir. 1992); accord United States v. Torres, 129 F.3d
710, 715 (2d Cir. 1997); Wilson v. United States, 962 F.2d 996, 997 (11th Cir.
1992); Smith v. Estelle, 711 F.2d 677, 682 (5th Cir. 1983). Because the
Petitioner’s contentions in support of these three claims all relate to counsel’s
pre-plea conduct, he waived the right to challenge these actions by pleading
guilty. See Moussaoui, 591 F.3d at 279.
Even if the Petitioner had not waived these claims, they are without
merit.

The Petitioner first contends that counsel provided ineffective

assistance by advising him to plead guilty without conducting an adequate
investigation into the Government’s discovery and his potential defenses.
Specifically, he contends that counsel did not investigate the Petitioner’s
claim that the child-sized underwear found at his residence belonged to an
14

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 14 of 27

adult, not the child victim. The Petitioner had admitted, however, that the
underwear belonged to the C.V. and also had told officers that he bought the
now stained underwear to masturbate on.

Under these circumstances,

counsel’s decision to not test the underwear for DNA was strategic and
objectively reasonable. Accordingly, there was no deficient performance.
See Strickland, 466 U.S. at 690. Additionally, Silva cannot show prejudice
because, regardless of the ownership of the underwear, the damaging
emails, pictures, videos, and statements he made, along with those made by
Black, provided overwhelming evidence of his guilt. See United States v.
Fugit, 703 F.3d 248, 260 (4th Cir. 2012).
In his second claim, the Petitioner asserts that counsel provided
ineffective assistance by failing to file a motion to suppress the statements
the Petitioner made to officers while his residence was being searched. To
establish ineffective assistance based on counsel’s failure to file a motion to
suppress, a defendant must show both deficient performance and prejudice.
There is no deficient performance where counsel’s determination not to
litigate a motion to suppress is reasonable. See Walker v. United States, No.
RWT-14-0526, 2015 WL 4638069, at *2 (D. Md. July 31, 2015). Further, a
petitioner cannot establish prejudice unless he proves that the “Fourth
Amendment claim is meritorious and that there is a reasonable probability
15

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 15 of 27

that the verdict would have been different absent the excludable evidence….”
Kimmelman v. Morrison, 477 U.S. 365, 375 (1986).
Here, the Petitioner offers no evidence that he was in custody when he
spoke to investigators at his residence. See Rule 2(b) of the Rules Governing
Section 2255 Proceedings for the United States District Courts (requiring the
motion to state the facts supporting each ground for relief). The Petitioner’s
subjective assertion in his Affidavit that he “considered” himself to be in
custody [CV Doc. 1: Silva Aff. at ¶ 1] is insufficient to establish a Fourth
Amendment violation. See Stansbury v. California, 511 U.S. 318, 323 (1994).
The Petitioner also does not argue that a motion to suppress would have
been successful; he merely contends that such a motion would have been
“arguable.” The Petitioner has identified nothing, however, that overcomes
the presumption that his counsel exercised reasonable professional judgment
in determining that a motion to suppress was not warranted. See Strickland,
466 U.S. at 690. Accordingly, he cannot show that counsel’s decision not to
file a motion to suppress was objectively unreasonable.
In his third claim, the Petitioner argues that counsel was ineffective in
advising him to plead to the Plea Agreement. The Petitioner asserts that
counsel’s advice was not based on an analysis of the evidence and that he
was not guilty of the offense to which he pleaded guilty because he was
16

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 16 of 27

merely engaged in “roleplaying” with Black, and, although he and Black
exchanged “objectionable photographs or videos,” he had not created those
images. [CV Doc. 1 at 5; Silva Aff. at ¶¶ 10, 12, 19, 25].
The Petitioner was convicted of aiding and abetting Black in enticing a
minor to engage in sexually explicit conduct for the purpose of producing a
visual depiction of such conduct. See 18 U.S.C. § 2251(a). The fact that the
Petitioner did not take the pictures and videos is not a defense to the charge
of aiding and abetting. See United States v. Caudill, 709 F.3d 444, 446-47
(5th Cir. 2013) (rejecting defendant’s argument that none of his
communications were passed along to the minor victim and holding that “a
defendant who communicates solely with an adult intermediary” can be guilty
of enticement); Demink v. United States, No. 12-cv-13456, 2015 WL
4429441, at *4 (E.D. Mich. 2015) (holding communication with adult
guardians of minor victims was sufficient to support conviction for inducing or
enticing an individual to engage in sexual activity). Whoever “aids, abets,
counsels, commands, induces or procures” the commission of an offense
against the United States, or “willfully causes an act to be done which if
performed directly by him” would be an offense, “is punishable as a principal.”
18 U.S.C. § 2. Thus, the Petitioner was guilty because he aided and abetted
Black in creating the images. Black stated that the Petitioner requested that
17

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 17 of 27

she take the sexually explicit photographs and told investigators that she did
so because he was coercing and threatening her. [CR Doc. 52: PSR at ¶¶
13(4), 36]. This conduct supported the Petitioner’s guilt of the offense, so he
cannot show deficient performance or prejudice based on counsel’s advice to
plead guilty.
In light of the evidence against him, Silva cannot show that a decision
to proceed to trial would have been reasonable. See Fugit, 703 F.3d at 260;
United States v. Santiago, 632 F. App’x 769, 774 (4th Cir. 2015) (holding
“when the Government’s case is strong, a defendant faces a nearly
insurmountable obstacle to showing that it would have been rational to go to
trial”).

Had the Petitioner not pleaded guilty, he would have faced four

additional charges, and he would have lost the three-level reduction for
acceptance of responsibility, all of which would have resulted in a much
higher sentence in the event of his conviction.
For all these reasons, the Court concludes that the Petitioner has
waived the ineffective assistance claims as asserted in Claims 1, 2, and 3.
Even if the Petitioner had not waived such claims, the Court finds that they
are baseless. Accordingly, Claims 1, 2, and 3 are dismissed.

18

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 18 of 27

B.

Claim 4

Next, the Petitioner contends that counsel provided ineffective
assistance by failing to move to withdraw his guilty plea.
A court considers six factors in determining whether there is a fair and
just reason for granting a motion to withdraw a guilty plea made prior to
sentencing:
(1) whether the defendant has offered credible
evidence that his plea was not knowing or voluntary,
(2) whether the defendant has credibly asserted his
legal innocence, (3) whether there has been a delay
between the entering of the plea and the filing of the
motion, (4) whether defendant has had close
assistance of competent counsel, (5) whether
withdrawal will cause prejudice to the government,
and (6) whether it will inconvenience the court and
waste judicial resources.
United States v. Moore, 931 F.2d 245, 248 (4th Cir. 1991).
Here, the Petitioner asserts that counsel resisted the Petitioner’s desire
to move to withdraw his guilty plea; that Black’s statement was the only
evidence supporting his guilty plea; and that even the Government had
doubts as to the information that Black provided. [CV Doc. 1 at 9]. In his
affidavit, the Petitioner contends that he informed his attorney of his “mental
state” and that his “ability to resist and advocate were significantly harmed”
due to the animosity and bad treatment that he was receiving from the small
19

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 19 of 27

community in which he resided. [CV Doc. 1: Silva Aff. at ¶ 17]. He argues
that after he pleaded guilty, he learned that Black’s credibility was
questionable and he told counsel that he wanted to withdraw his plea. [Id. at
¶¶ 22, 24]. The Petitioner’s mother also provided an affidavit, asserting that
the Petitioner told her “that he felt forced into accepting the plea and the plea
agreement.” [CV Doc. 1: Dufur Aff. at ¶ 2].
The Petitioner cannot show that counsel’s performance in this regard
was deficient. The Petitioner’s assertion that he wanted to withdraw his guilty
plea based on the questionability of Black’s credibility would not have
established a fair and just reason for withdrawing his plea. The Petitioner was
in the best position to assess Black’s information and credibility, even prior to
his plea, because he knew what his interactions with her were when
committing the offense. Additionally, the Petitioner bases the issue of
credibility on what occurred during Black’s sentencing hearing, which took
place eight months after he pleaded guilty. [See Docket Entries of June 12,
2014 and Feb. 12, 2015]. The transcript of that proceeding shows that the
question as to Black’s credibility related to whether she was completely
forthcoming regarding her own conduct in committing a contact offense, not
whether she was credible as to the Petitioner’s conduct. [See CR Doc. 78:

20

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 20 of 27

Black Sent. Tr. at 27-28, 30]. Accordingly, this would not have supported a
motion to withdraw the plea.
Similarly, the Petitioner’s contention that his ability to resist pleading
guilty was lessened by the bad treatment that he received in his small
community would not have overcome the statements that he made under
oath during the plea hearing that his plea was voluntary and not the result of
coercion or threats, nor his reaffirmation of this representation at sentencing.
In the absence of a fair and just reason for moving to withdraw the plea,
counsel’s performance was not deficient. See United States v. Craig, 985
F.2d 175, 179-80 (4th Cir. 1993) (holding district court did not abuse its
discretion in denying motion to withdraw a plea based on claimed ineffective
assistance of counsel, including assertion that counsel coerced defendant to
plead guilty); Moore, 931 F.2d at 248.
Finally, the Petitioner cannot show prejudice arising from counsel’s
performance.

By pleading guilty, the Petitioner had four other charges

dismissed, and he received a three-level reduction for acceptance of
responsibility, which significantly lowered his sentence. See Lee, 137 S. Ct.
at 1967 (holding a defendant facing long odds will rarely be able to show
prejudice from accepting a guilty plea and that “[c]ourts should not upset a
plea solely because of post hoc assertions from a defendant about how he
21

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 21 of 27

would have pleaded but for his attorney’s deficiencies”). For all these
reasons, this claim is also denied.
C.

Claim 5

In his final claim, the Petitioner asserts that he received ineffective
assistance at sentencing because counsel failed to call a forensic
psychologist to address the impact of the Petitioner having been the victim of
child molestation. He further contends that counsel was ineffective by not
arguing the need to avoid unwarranted sentencing disparities or the need to
“recognize developed sentencing jurisprudence” in this type of case. [CV
Doc. 1 at 15].
To establish ineffective assistance of counsel at sentencing, a petitioner
must show that but for counsel’s deficient performance, there is a reasonable
probability that he would have received a lower sentence. See Royal v.
Taylor, 188 F.3d 239, 249 (4th Cir. 1999).
Here, the Petitioner cannot show deficient performance because
counsel argued that the Petitioner had suffered abuse as a child and argued
about the need to avoid unwarranted sentencing disparities, citing Black’s
sentence, as well as the sentence imposed in another case within the district.
The Petitioner does not identify any “developed sentencing jurisprudence”
that counsel should have cited, so this conclusory assertion is dismissed.
22

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 22 of 27

See United States v. Dyess, 730 F.3d 354, 359-60 (4th Cir. 2013) (“vague
and conclusory allegations in a § 2255 petition may be disposed of without
further investigation by the District Court”) (citation omitted).
Moreover, counsel did not act in an objectively unreasonable fashion
by citing the Petitioner’s prior abuse without calling for testimony from a
forensic psychologist. Evidence of psychological impairments can also
establish aggravating factors, such as a propensity towards recidivism, and
counsel’s strategic decision in this regard is entitled to deference. See Royal,
188 F.3d at 249 (rejecting ineffective assistance claim based on counsel’s
failure to present certain mitigating evidence and recognizing that “reliance
on evidence of psychological impairments or personal history as mitigating
factors at sentencing can be a ‘double-edged sword’”) (citation omitted);
Phillips v. United States, No. 5:12-cv-00236-F-1, 2016 WL 1047008, at *4
(E.D.N.C. Mar. 10, 2016) (holding that counsel’s decision not to retain an
independent medical expert was “the type of strategic choice by counsel that
may not be second-guessed on habeas review”), appeal dismissed, 672 F.
App’x 309 (4th Cir. 2017). Thus, the Petitioner has failed to demonstrate
deficient performance.
Further, the Petitioner cannot show prejudice. This Court specifically
stated that it reduced the Petitioner’s sentence based on his history of abuse,
23

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 23 of 27

finding it to be a mitigating factor.

The Court, however, also found

aggravating factors in this case, as well as factors that distinguished it from
the other defendants cited by counsel. The factor at issue has been fully
accounted for.

Thus, the Petitioner has not met his burden to show

constitutionally deficient conduct, or that he would have received a more
lenient sentence. Accordingly, this claim of ineffective assistance also must
be denied.
D.

Government’s Motion to Seal

The Government moves to seal its Response to Petitioner’s Motion to
Vacate in order to prevent the disclosure of information previously filed under
seal, namely, information from the sealed factual basis and sealed
presentence report, including information relating to the minor victim of the
offense.
The press and the public have, under both the First Amendment and
the common law, a qualified right of access to judicial documents and records
filed in civil and criminal proceedings. Doe v. Public Citizen, 749 F.3d 246,
265 (4th Cir. 2014). “The common-law presumptive right of access extends
to all judicial documents and records, and the presumption can be rebutted
only by showing that ‘countervailing interests heavily outweigh the public
interests in access.’” Id. at 265-66 (quoting in part Rushford v. New Yorker
24

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 24 of 27

Magazine, Inc., 846 F.2d 249, 253 (4th Cir. 1988)). The First Amendment
right of access “may be restricted only if closure is ‘necessitated by a
compelling government interest’ and the denial of access is ‘narrowly tailored
to serve that interest.’” Id. at 266 (quoting in part In re Wash. Post Co., 807
F.2d 383, 390 (4th Cir. 1986)).
When presented with a motion to seal, the law of this Circuit requires
this Court to: “(1) provide public notice of the request to seal and allow
interested parties a reasonable opportunity to object, (2) consider less drastic
alternatives to sealing the documents, and (3) if the sealing motion is granted,
provide specific reasons and factual findings supporting its decision to seal
the documents and for rejecting the alternatives.” Ashcraft v. Conoco, Inc.,
218 F.3d 288, 302 (4th Cir. 2000).
In the present case, the public has been provided with adequate notice
and an opportunity to object to the Government’s motion. Further, the movant
has demonstrated that the Response contains certain information from the
sealed Factual Basis and PSR concerning the minor victim, and that the
public’s right of access to such information is substantially outweighed by the
competing interest in protecting the details of such information, particularly
regarding a child. Finally, having considered less drastic alternatives to
sealing the documents, the Court concludes that sealing of the Government’s
25

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 25 of 27

Response is necessary to protect the victim’s minor privacy interests. For all
these reasons, the Government’s Motion to Seal is granted.
E.

Petitioner’s Motion for Discovery

The Petitioner moves the Court for discovery in this § 2255 proceeding.
[CV Doc. 9]. To obtain leave to serve discovery requests, the Petitioner has
the burden to show “good cause” under Rule 6(a) of the Rules Governing
Section 2255 Proceedings. See Bracy v. Gramley, 520 U.S. 899, 908 (1997).
“Good cause” does not exist where a petitioner requests discovery on a claim
that fails as a matter of law. See Thomas v. Taylor, 170 F.3d 466, 474 (4th
Cir. 1999). Because the Court has concluded that the Petitioner’s claims all
fail as a matter of law, his request for discovery must be denied.
IV.

CONCLUSION
For the foregoing reasons, the Petitioner’s motion to vacate is denied

and dismissed.

The Court further finds that Petitioner has not made a

substantial showing of a denial of a constitutional right. See generally 28
U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537 U.S. 322, 336-38
(2003) (in order to satisfy § 2253(c), a “petitioner must demonstrate that
reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong”) (citing Slack v. McDaniel, 529 U.S.
473, 484-85 (2000)). The Petitioner has failed to demonstrate both that this
26

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 26 of 27

Court’s dispositive procedural rulings are debatable, and that the motion to
vacate states a debatable claim of the denial of a constitutional right. Slack
v. McDaniel, 529 U.S. 473, 484-85 (2000). As a result, the Court declines to
issue a certificate of appealability. See Rule 11(a), Rules Governing Section
2255 Proceedings for the United States District Courts, 28 U.S.C. § 2255.
ORDER
IT IS, THEREFORE, ORDERED that:
(1)

The Petitioner’s Motion under 28 U.S.C. § 2255 to Vacate, Set
Aside, or Correct Sentence by a Person in Federal Custody [CV
Doc. 1] is DENIED and DISMISSED;

(2)

The Government’s Motion to Seal [CV Doc. 5] is GRANTED, and
the Government’s Response [CV Doc. 4] shall remain under seal
until further Order of this Court; and

(3)

The Petitioner’s Motion for Leave to Propound Discovery [CV
Doc. 9] is DENIED.

IT IS FURTHER ORDERED that the Court declines to issue a certificate
of appealability.
IT IS SO ORDERED.

Signed: August 12, 2019

27

Case 1:17-cv-00096-MR Document 13 Filed 08/12/19 Page 27 of 27

APPENDIX C

Informal Brief of Mr. Silva to Fourth Circuit Court
of Appeals seeking issuance of a Certificate of
Appealability

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 1 of 20

IN THE UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT
DOCKET NO. 19-7470

UNITED STATES OF AMERICA,

}
}
Respondent-Appellee, }
}
vs.
}
}
PATRICK SILVA,
}
}
Petitioner-Appellant }
}

INFORMAL BRIEF
1.

Declaration of Inmate Filing
Mr. Silva’s notice of appeal was filed electronically in the United States

District Court for the Western District of North Carolina on October 9, 2019. Dkt
1:17CV96, Doc. No. 15.
2.

Jurisdiction
This appeal is from the United States District Court for the Western District

of North Carolina (Asheville Division).
The appeal is from the Order and Judgment entered below as Docket Entries
13 and 14.

USCA4 Appeal: 19-7470

3.

Doc: 9

Filed: 11/25/2019

Pg: 2 of 20

Certificate of Appealability
The District Court did not grant a certificate of appealability.
This Informal Brief is submitted in accordance with the Informal

Preliminary Briefing Order issued by this Honorable Court. USCA 19-7470, Dkt
Doc. No. 3.
4.

Issues on Appeal

Issue 1:

Mr. Silva’s claims that he was persuaded to enter into the guilty plea
in a manner contrary to his Sixth Amendment right to have the
effective assistance of counsel have colorable support on the record
and should have been adjudicated after the provision to him of
discovery.

Supporting Facts and Argument:
“An appeal may not be taken from the final order in a 28 U.S.C. § 2255
proceeding unless a circuit justice or judge issues a certificate of appealability. 28
U.S.C. § 2253(c)(1). A certificate of appealability will not issue absent a
substantial showing of the denial of a constitutional right. § 2253(c)(2). A prisoner
satisfies this standard by demonstrating that reasonable jurists would find that his
constitutional claims are debatable and that any dispositive procedural rulings by
the district court are also debatable or wrong.” United States v. Swaby, 855 F.3d
233, 239 (4th Cir. 2017).

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 3 of 20

As set forth in the Section 2255 motion, Mr. Silva claimed that
“Trial counsel was ineffective in failing to sufficiently investigate the
government's discovery and to investigate lines of defense made
known by Mr. Silva. This ineffectiveness carried over into advice
during discussions with Mr. Silva about whether to proceed to trial,
whether to accept the government's offer, and about plea negotiations.
Were it not for these errors, upon which Mr. Silva relied, Mr. Silva
would have pleaded not guilty, would not have accepted the
government's plea offer (which Mr. Silva did accept based upon the
ineffective advice of counsel) and would have insisted upon going to
trial.
There was no evidence upon which to base trial counsel's
advice that Mr. Silva plead guilty to this offense, either as a principal
or as an aider-and-abettor; the advice by trial counsel to plead guilty
was not based upon any critical analysis of the evidence or upon any
of Mr. Silva's asserted defenses and lines of investigation. Had such
inquiry and analysis been made, and discussed knowingly with Mr.
Silva, Silva would have concluded he was not guilty of the offense to
which he was pleading guilty.
See generally USDC 1:17CV96 Dkt. Doc. No. 1at 5.

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 4 of 20

Among those factual averments presented in Mr. Silva’s affidavit, which
had been made a part of his motion, were those touching upon post-plea concerns
by the Government that co-defendant Black had been untruthful (and thus
deserving of only a minimal government departure motion for substantial
assistance), and those touching upon concerns Mr. Silva had about whether his codefendant’s debriefings were adequate to sustain the evidence upon which he pled
guilty.
In a document filed with the District Court, pre-plea, it was noted that Mr.
Silva had not threatened or coerced co-defendant Black to make the images that
formed the basis of the prosecution against both Black and Silva. This
qualification to the Factual Basis was written on the form filed with the Court; it
appeared to be worded as if written by Mr. Silva’s trial counsel. Then, in his
affidavit offered in support of his Section 2255 motion, Mr. Silva denied ever
having communicated with co-Defendant Black in such a way as to have Black
stage or take the photographs used to prosecute Mr. Silva. See USDC 1:17CV96
Dkt Doc. No. 1 ¶¶ 10, 20.
The development of this line of thought or defense — that Mr. Silva did not
prevail in any way upon co-defendant Black take the photographs or images —
was not developed by trial counsel. The significance of this lack of development
was called into play later, when the Government indicated that co-defendant Black

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 5 of 20

had not been truthful to them. Defense counsel did not — as far as is known from
the record we have — explore this further or press the government for
information. This is significant because this conduct goes to the very core of
whether Mr. Silva’s lack of employment (“employ, use, persuade, induce, entice
and coerce,” in the terms of 18 U.S.C. § 2251(a)) of co-defendant Black to access
the minor victim for the production of images shows Mr. Silva’s actual innocence.
If co-defendant Black (or her husband) were making photographs for others, or
were making photographs in a quantity greater than those provided to Mr. Silva,
then the evidence would suggest that Mr. Silva’s entreaties were superfluous and
unnecessary. That, in turn, supports an actual innocence argument. At any rate, it
is apparent from the record now extant that trial counsel’s advice influenced Mr.
Silva to not press this with the Court; it influenced him to plead guilty..
Behind Mr. Silva’s claim in his Section 2255 motion is a nascent argument
that he is innocence of the charge to which he pled guilty. As discussed in this
Circuit’s case of Fugit, in order to be deemed actually innocent, Mr. Silva "must
demonstrate that, 'in light of all the evidence,' 'it is more likely than not that no
reasonable juror would have convicted him.' Bousley, 523 U.S. at 623 (quoting
Schlup v. Delo, 513 U.S. 298, 327-28, 115 S. Ct. 851, 130 L. Ed. 2d 808 (1995)).”
United States v. Fugit 703 F.3d 248, 256 (4th Cir. 2012), cert. denied 571 U.S.
1163, 134 S. Ct. 999, 187 L. Ed. 2d 850, 2014 U.S. LEXIS 784 (Jan. 21, 2014).

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 6 of 20

“It is important to note that ‘actual innocence’ means factual innocence, not mere
legal insufficiency. In other words, the Government is not limited to the existing
record to rebut any showing that petitioner might make . . . [and may rely on] any
admissible evidence of petitioner's guilt even if that evidence was not presented
during petitioner's plea colloquy . . . .” Fugit at 256
The District Court ordered a response by the Government. USDC
1:17CV96 Dkt Doc No. 2 (stating that Mr. Silva appeared to have a colorable
claim for relief). The Government’s response did not provide any evidence
outside of that which already existed on the record or as supplied by Mr. Silva.
USDC 1:17CV96 Dkt Doc No. 4 (govt response).
After the Government responded, Mr. Silva replied. USDC 1:17CV96 Dkt.
Doc. No. 8. Mr. Silva’s reply brought to the District Court’s attention a Supreme
Court opinion which addressed the appropriate legal standard governing Sixth
Amendment claims arising from plea cases. See Docket Doc. No. 8 at 2 ( Lee v.
United States,137 S.Ct. 1958, 198 L.Ed.2d 476, No. 16-327 (June 23,2017).
In contrast to the legal standard espoused by the Government in its response
to Mr. Silva’s initial pleading, Mr. Silva argued that he need not show that he had
a chance or a likelihood of success at trial in order to make out a showing of
prejudice. All he had to show was that his trial counsel had been ineffective, that
this ineffectiveness shaped and formed the decision to plead guilty and to maintain

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 7 of 20

that plea of guilty and, but for this ineffectiveness, Mr. Silva would not have pled
guilty. See id. 3. This Mr. Silva did do in his motion under Section 2255. He
indicated that the Government’s versions of events were not true, and that his
attorney cursorily advised him to plead guilty. Notably, Mr. Silva’s protestations
that the Government’s factual proffer to him in support of his plea was wrong
were met by advice from his attorney to plead guilty.
In presenting to the District Court the relevance of the Lee opinion, Mr.
Silva indicated that deficient performance could take many shapes: failure to
investigate defenses or evidentiary concerns, a failure to advance arguments that
might have merit, etc. See id.4 n. 2 (citing U.S. v. King, No.16-6382, slip op. 3
(4th Cir. February 15, 2017). Additionally, it was suggested to the District Court
that Lee rejected the proposition that it was proper, on post-conviction relief, for
the post-conviction court to substitute its judgment for that of the defendant on the
wisdom of pleading guilty or not. Id. 5.
Mr. Silva then filed a request for discovery. USDC 1:17CV96 Dkt Doc Nos
9 and 9-1. The proposed lines of discovery sought inter alia information relating
to whether co-defendant Black made pornographic images of C.V. for others,
sought the discovery of communications by and between the prosecutor and
defense counsels for both Mr. Silva and co-defendant Black, sought information
pertaining to the prosecution’s assessment of co-defendant Black’s credibility, and

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 8 of 20

sought information known to the Government about any possible involvement by
co-defendant Black’s husband in these matters. It also sought the production of
the case file of Mr. Silva’s trial court counsel.
In its omnibus opinion and order adjudicating Mr. Silva’s 2255 motion and
his request for discovery, the District Court relied heavily upon Circuit
precedence and, to a lesser extent, upon the June, 2017 Supreme Court case of
Lee. The District Court framed the governing law thusly:
a post-conviction petitioner must show that “‘there is a reasonable
probability that, but for counsel's errors, he would not have pleaded
guilty and would have insisted on going to trial.’ United States v.
Swaby, 855 F.3d 233, 241 (4th Cir. 2017) (quoting Hill v. Lockhart,
474 U.S. 52, 59 (1985)). ‘Courts should not upset a plea solely
because of post hoc assertions from a defendant about how he would
have pleaded but for his attorney’s deficiencies. Judges should
instead look to contemporaneous evidence to substantiate a
defendant's expressed preferences.’ Lee v. United States, 137 S. Ct.
1958, 1967 (2017).” USDC 1:17CV96 Dkt Doc No.13, at 12 -13.
In addressing Mr. Silva’s claim that trial counsel was ineffective in advising
him to enter into the plea agreement, the District Court surveyed statements or
admissions made by Mr. Silva during the proceedings below (which statements or

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 9 of 20

admissions he qualified in his affidavit in support of his motion). Even if those
claims or admissions by Mr Silva were less than probative of guilt, reasoned the
District Court, the statements made by co-defendant Black were sufficient to
corroborate them. Id. 17 - 18. Notably, the District Court did not address the
suggestions that Ms. Black was making photos for others and that the child
victim’s own father may have produced them. Again, if that were the case, the
actual innocence needle moves further in Mr. Silva’s direction. Additionally, the
District Court determined that some of co-defendant Black’s statements —
statements not disclosed to Mr. Silva or known to the District Court — were of no
real consequence. As to co-defendant Black’s statements, the District Court relied
upon the summary characterization of these statements at Black’s sentencing that
she had hedged or minimized her involvement in some other conduct. It goes
without saying that Mr. Silva was not privy to the raw data upon which the
Government made these assertions, nor was he a party to Black’s sentencing
proceeding.
It appears to be an open question in the Fourth Circuit as to how involved
an intermediary must be to be guilty under 18 U.S.C. § 2251(a). The law upon
which the District Court relied from the Fifth Circuit, amongst others, appears to
correctly represent the legal standard for guilt under a similar provision of 18
U.S.C. § 2422(b)(“knowingly persuades, induces, entices, or coerces...”). See

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 10 of 20

USDC 1:17CV96 Dkc Doc. No. 13 at 17 What is unresolved for Mr. Silva is
whether his counsel properly advised him to plead guilty or whether counsel erred
when it summarily characterized Mr. Silva’s objections to the Government’s
factual basis forecast of guilt as that Mr. Silva did not threaten or coerce the codefendant to produce these photos. This lack of development is the sort of
performance by trial counsel that not only underlays claims of actual innocence
but supports a finding of ineffective assistance of counsel. Mr. Silva’s intimation
that his guilty plea was the result of advice by counsel — to which advice Mr.
Silva acquiesced and followed — illustrates how Mr. Silva came to be in the
current procedural posture he is now.
The District Court concluded that Mr. Silva had not shown that it would be
reasonable for him to have gone to trial, as opposed to accepting the plea
agreement. See Dkt Doc No. 13 at 12 - 13 (quoting Lee, “‘Courts should not
upset a plea solely because of post hoc assertions from a defendant about how he
would have pleaded but for his attorney’s deficiencies. Judges should instead look
to contemporaneous evidence to substantiate a defendant's expressed
preferences.’”). This analysis minimizes the Lee legal standard and emphasizes
earlier jurisprudence weighing the likelihood of success at trial.
To assuage any concern that Mr. Silva’s 2255 motion presents after-the-fact
buyer’s remorse, there was evidence presented in the 2255 motion that Mr. Silva

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 11 of 20

had concerns and that those concerns were contemporaneously raised with trial
counsel and Mr. Silva’s mother. These concerns were not, based upon the record
we now have, fully vetted with either the prosecution or between Mr. Silva and his
counsel. It is clear they were not raised with the District Court. On this point as to
why they were not developed, an evidentiary hearing and discovery would have
been most helpful to both the District Court and this Honorable Court. An
evidentiary hearing was deemed by the District Court to be unnecessary. See
generally USDC Dkt 1:17CV96.
The primary responsibility for recognizing problems, addressing the
problems and protecting the record for further review falls to counsel, not to the
defendant. United States v. Carthorne, 878 F.3d 458, 464 (4th Cir. 2017). Mr.
Silva should not be faulted now and denied an opportunity to develop his Sixth
Amendment claim merely because he did not bring this to the District Court’s
attention earlier. In regard to this point that trial counsel should have explored
this issue, for instance, the law of this Circuit recognizes the role of trial counsel.
Where trial counsel fails to properly engage in the adversarial process,
ineffectiveness results. E.g. Carthorne, 878 F.3d at 465 ( “A finding of ineffective
assistance ultimately will result when counsel's conduct ‘so undermined the proper
functioning of the adversarial process’ that the proceedings below ‘cannot be
relied on as having produced a just result.” (internal cite omitted)).

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 12 of 20

A legal error by a trial court is reviewable de novo by the appeals court. Cf.
U.S. v. Carthorne, 878 F.3d at 464; Teleguz v. Pearson, 689 F.3d 322, 327 (4th
Cir. 2012). The results of the District Court’s adjudication of this matter does
present an opportunity for this Honorable Court to find that Mr. Silva’s claims
merit remand for reconsideration of his motion under the Lee legal standard. This
is so because Mr. Silva has shown that he would not have pled guilty had trial
counsel fully developed the facts and advised Mr. Silva accordingly.
In consideration of all this, and as is discussed more fully in the following
issue, the District Court’s denial of an evidentiary hearing and its denial of the
requested discovery effectively barred Mr. Silva from proving his claims of
ineffective assistance of counsel and actual innocence. In this regard, this
Honorable Court is asked to apply the discussion, below, about the discovery
request to this issue, too.

Issue 2:

The United States District Court’s Order denying Mr. Silva’s request
for limited discovery was an abuse of discretion because it denied
him access to that which he needed to fully present his claim that trial
counsel was ineffective in advising and representing Mr. Silva on a
possible motion to withdraw his guilty plea.

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 13 of 20

Supporting Facts and Discussion
This issue addresses Mr. Silva’s claim that trial counsel was ineffective
regarding Mr. Silva’s desire to withdraw his guilty plea and it addresses the Order
denying Mr. Silva’s request for the promulgation of discovery. The discovery
requests would have had direct bearing upon the merits of the withdrawal-of-theguilty-plea claim.
The legal authority governing withdrawals of guilty pleas is set forth in
Fed.R.Crim.P. 11:
(d) Withdrawing a Guilty or Nolo Contendere Plea. A defendant may
withdraw a plea of guilty or nolo contendere:
(1) before the court accepts the plea, for any reason or no reason; or
(2) after the court accepts the plea, but before it imposes sentence if:
(A) the court rejects a plea agreement under Rule 11(c)(5); or
(B) the defendant can show a fair and just reason for requesting the
withdrawal.
Trial courts have discretion when adjudicating motions to withdraw guilty pleas.
E.g. United States v. Lambey, 974 F.2d 1389, 1396 (4th Cir. 1992)(abuse of
discretion standard governing motions to withdraw guilty pleas). Discretion can
only be applied to that which is known and presented to the adjudicating court.
The defendant has the burden of showing a fair and just reason for withdrawal See

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 14 of 20

United States v. Vonn, 535 U.S. 55, 72, 122 S. Ct. 1043, 152 L. Ed. 2d 90 (2002).
In Mr. Silva’s case, and as admitted in his Section 2255 motion, such a claim was
not made in the trial court. Accordingly, the District Court’s adjudication of the
post-conviction claim that Mr. Silva’s motion would have been without merit is an
advisory opinion. Cf. United States v. Nicholson, 676 F.3d 376, 383 (4th Cir.
2012) (district court abuses its discretion when it acts arbitrarily, “when it fails to
consider judicially-recognized factors limiting its discretion, or when it relies on
erroneous factual or legal premises.’).
Mr. Silva presented an allegation in his Section 2255 motion that his trial
counsel had been ineffective in investigating, advising and representing him on a
possible motion to withdraw his guilty plea. USDC 1:17CV96 Dkt Doc. No. 1 at 9.
As noted by Mr. Silva, his interest in making such a motion was caused in great
part by governmental disclosures that co-defendant Black was deemed by the
Government to not be truthful. This line of inquiry was not pursued by counsel for
Mr. Silva. Because of that, Mr. Silva could not allege with specificity in his
Section 2255 motion how co-defendant Black’s undisclosed statements might
support his then-expressed desire to move to withdraw his guilty plea. That is
significant because co-defendant Black was the only person known to the
Government who could connect Mr. Silva to the conduct supporting his conviction
— that conduct being the production by co-defendant Black (or others) of the

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 15 of 20

images.
Since Mr. Silva had presented evidence in his Section 2255 motion that this
general inquiry into the Government’s seeming loss of confidence in their witness
was the impetus for his desire to consider moving to withdraw his guilty plea, and
since only the Government and, perhaps, Mr. Silva’s trial attorney, were privy to
the substance of all this, it is argued now that Mr. Silva’s discovery requests were
tailored to the issue he presented on post-conviction motion. The denial of this
information to Mr. Silva made it all but impossible for him to adequately present
this claim on post-conviction motion. And, as noted in the previous issue, Mr.
Silva and his mother provided affidavits that they had discussed and raised this
issue at the time a motion to withdraw could have been presented on the merits.
Indeed, given Mr. Silva’s reservation to his attorney about the exact nature of Mr.
Silva’s interactions with co-defendant Black, the discovery request may have led
to information suggesting Mr. Silva was innocent of the charge to which he pled
guilty. It was an abuse of discretion for the trial court to have denied this
discovery request. Cf. Dyer v. United States, 23 F.3d 1421 (8th Cir. 1994)
(district court did not abuse its discretion by denying discovery in a § 2255
proceeding where the petitioner failed to show how the evidence he sought would
establish his innocence).
As a general matter, criminal defendants have no right to discovery that is

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 16 of 20

not provided for in the Federal Rules of Criminal Procedure. Weatherford v.
Bursey, 429 U.S. 545, 559, 97 S. Ct. 837, 51 L. Ed. 2d 30 (1977). Discovery may
be authorized in a § 2255 case only upon leave of the court, and after a showing of
"good cause" by the petitioner. Rule 6(a), Rules Governing § 2255 Proceedings
for the United States District Courts. A party requesting discovery must provide
reasons for the request. Rule 6(b), Rules Governing § 2255 Proceedings for the
United States District Courts. Good cause for discovery is found "'where specific
allegations before the court show reason to believe that the petitioner may, if the
facts are fully developed, be able to demonstrate that he is ... entitled to relief.'"
Bracy v. Gramley, 520 U.S. 899, 908-09, 117 S. Ct. 1793, 138 L. Ed. 2d 97 (1997)
(quoting Harris v. Nelson, 394 U.S. 286, 300, 89 S. Ct. 1082, 22 L. Ed. 2d 281
(1969)). A petitioner must be able to point to specific factual allegations when
making his request; the discovery requests may not be so broad and baseless as to
constitute a "fishing expedition." United States v. Wilson, 901 F.2d 378, 381 (4th
Cir. 1990). Once good cause is established, a district court has discretion to
determine the scope and extent of discovery. See Bracy, 520 U.S. at 909; see also
United States v. Roane, 378 F.3d 382, 394 (4th Cir. 2004) (using an abuse of
discretion standard to review a district court's denial of discovery in a § 2255
case). A judge may authorize discovery under the Federal Rules of Criminal or
Civil Procedure, or "in accordance with the principles and practices of law." Rule

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 17 of 20

6(a), Rules Governing Section 2255 Proceedings for the United States District
Courts.
The District Court’s rejection of Mr. Silva’s request for discovery led, in
turn, to an evidentiary discussion by the District Court as to why Mr. Silva’s
motion to withdraw his guilty plea would have been deemed by the Court to be
meritless. The issue here is that any such finding on the merits of the motion to
withdraw is based upon speculation — speculation because Mr. Silva’s
evidentiary showing was stymied for want of evidence and for want of Mr. Silva
not having raised this issue first, on the merits, with the District Court before he
was sentenced. Cf. Roe v. Flores-Ortega, 528 U.S. 470, 482 (2000) (can not apply
presumption of reliability to judicial proceedings that never occurred). The
requested discovery may have addressed those concerns and led the District Court
to a conclusion in favor of Mr. Silva on this plea withdrawal claim.
On these points of law and argument, it is suggested to this Honorable Court
that the District Court’s denial of Mr. Silva’s claim on the plea withdrawal issue
was premature, given the District Court’s denial of Mr. Silva’s request for
discovery. An evidentiary hearing, convened after the provision of the requested
discovery, would have done much to present a fuller and proper record to not just
the District Court but to this Honorable Court. On these points, reasonable jurists
may agree.

USCA4 Appeal: 19-7470

5.

Doc: 9

Filed: 11/25/2019

Pg: 18 of 20

Relief Requested
1.

That this Honorable Court find that Mr. Silva has made a substantial
showing that he was deprived of a constitutional right to the effective
assistance of counsel under the Sixth Amendment. Mr. Silva’s claims
that he was persuaded to plead guilty and that his claims of factual or
actual innocence were minimized by trial counsel have merit and
warrant an evidentiary hearing (along with the provision of discovery
as requested below). Mr. Silva’s claims that his trial counsel’s advice
and representation surrounding Mr. Silva’s desire to withdraw his
guilty plea were constitutionally deficient and prejudiced him such
that he was deprived of his constitutional right to effective assistance
of counsel.

2.

That this Honorable Court remand with an order that the District
Court provide the discovery requested by Mr. Silva and that, if then
need be, the District Court convene an evidentiary hearing.

3.

Alternatively, this Honorable Court is requested to order the
production to it by the parties of briefs and appendices on the merits.

4.

That this Honorable Court find that Mr. Silva has met the
qualifications for the issuance of a certificate of appealability and that
this Honorable Court grant such relief as it deems appropriate.

USCA4 Appeal: 19-7470

6.

Doc: 9

Filed: 11/25/2019

Pg: 19 of 20

Prior appeals (for appellants/petitioners only)
A.

Mr. Silva has previously filed an appeal.

B.

The previous appeal is captioned as United States v. Patrick Silva,
No. 15-4340 (4th Cir.). The appeal was a direct appeal from the final
judgment of conviction and sentence in this criminal case; the
criminal case may be found in the District Court under Docket
Number 1:14CR26.

Respectfully submitted, this the 25th day of November, 2019.

/s/ Randolph M. Lee
NCSB no. 9329
Attorney for Mr. Patrick Silva
P. O. Box 654
Monroe, NC 28111
704.841.2222
RandolphLeeLaw@gmail.com
Randolph@RandolphMarshallLee.com

USCA4 Appeal: 19-7470

Doc: 9

Filed: 11/25/2019

Pg: 20 of 20

CERTIFICATE OF SERVICE
I hereby certify that a copy of this pleading will be served upon the
opposing party, the United States of America, when this pleading is filed with this
Honorable Court through its electronic case management, filing and registry
system with such service upon its counsel by ECF/ECM.

This, the 25th day of November, 2019.

/s/ Randolph M. Lee

